NO. _____

IN THE

Supreme Court of the
United States
JEFFREY MCCLATCHY,
Petitioner,
v.

THE STATE OF TEXAS,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF CRIMINAL APPEALS OF TEXAS
APPENDIX TO PETITION
FOR A WRIT OF CERTIORARI
ALEXEY V. TARASOV, ESQ.
ATTORNEY FOR PETITIONER
5211 Reading Road
Rosenberg, Texas 77471
Tel.: 832-623-6250

APPENDIX TABLE OF CONTENT

Appendix Item No. 1
Decision of the Texas Court of Criminal Appeals denying petitioner’s habeas
corpus petition. ....................................................................................................... 4
Appendix Item No. 2
Judgment of the 338th District Court of Harris County sentencing petitioner
to 40 years. ............................................................................................................. 6
Appendix Item No. 3
Charging instrument commencing petitioner’s criminal prosecution. .................. 9
Appendix Item No. 4
Carlisle v. Frisbie Memorial Hospital, 152 N.H. 762 (2005). .............................. 11
Appendix Item No. 5
Counsel’s affirmation in support of applicant’s petition for
habeas corpus. ........................................................................................................ 28
Appendix Item No. 6
Memorandum from the Harris County District Attorney’s Office,
Dec. 6, 2012. .......................................................................................................... 34
Appendix Item No. 7
Letter addressed to the sentencing judge from Jeffrey McClatchy. ...................... 39
Appendix Item No. 8
Police statement given by the victim. .................................................................... 47

App. Pg. No. 2

Appendix Item No. 1
Decision of the Texas Court of
Criminal Appeals denying
petitioner’s habeas corpus
petition.

App. Pg. No. 3

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

1/27/2021
MCLATHCY, JEFFREY
Tr. Ct. No. 1366887-A
WR-92,100-01
This is to advise that the Court has denied without written order the application for
writ of habeas corpus.
Deana Williamson, Clerk
JEFFREY MCLATHCY
STILES UNIT - TDC # 1909612
3060 FM 3514
BEAUMONT, TX 77705

App. Pg. No. 4

Appendix Item No. 2
Judgment of the 338th
District Court of Harris
County sentencing petitioner
to 40 years.

App. Pg. No. 5

App. Pg. No. 6

App. Pg. No. 7

Appendix Item No. 3
Charging instrument
commencing petitioner’s
criminal prosecution.

App. Pg. No. 8

App. Pg. No. 9

Appendix Item No. 4
Carlisle v. Frisbie Memorial
Hospital, 152 N.H. 762 (2005).

App. Pg. No. 10

NOTICE: This opinion is subject to motions for rehearing under Rule 22 as well as
formal revision before publication in the New Hampshire Reports. Readers are
requested to notify the Reporter, Supreme Court of New Hampshire, One Noble
Drive, Concord, New Hampshire 03301, of any editorial errors in order that
corrections may be made before the opinion goes to press. Errors may be reported by
E-mail at the following address: reporter@courts.state.nh.us. Opinions are available
on the Internet by 9:00 a.m. on the morning of their release. The direct address of the
court's home page is: http://www.courts.state.nh.us/supreme.
THE SUPREME COURT OF NEW HAMPSHIRE
___________________________
Strafford
No. 2004-555
HEIDI CARLISLE
v.
FRISBIE MEMORIAL HOSPITAL & a.
Argued: September 15, 2005
Opinion Issued: November 30, 2005
Backus, Meyer, Solomon & Branch LLP, of Manchester (Jon Meyer on the brief and
orally), for the plaintiff.
McDonough & O'Shaughnessy, P.A., of Manchester (Michael B.
O'Shaughnessy and Robert J. Meagher on the brief, and Mr. Meagher orally), for the
defendants.
Galway, J. This appeal follows a jury trial in Superior Court (Mohl, J.) awarding a
verdict for the plaintiff, Heidi Carlisle, on her claims against the defendants, Frisbie
Memorial Hospital (Frisbie) and John Jackson, M.D. We affirm.
On appeal, the defendants argue that the trial court erred by: (1) submitting to the jury
the plaintiff’s professional negligence claim, her claims under the federal Emergency
Medical Treatment and Active Labor Act (EMTALA), 42 U.S.C. § 1395dd (2000),
and her claims under the New Hampshire Patients’ Bill of Rights Act (PBR), RSA
151:19-:31 (1996); (2) submitting erroneous jury instructions on EMTALA,

App. Pg. No. 11

professional negligence, and damages; (3) refusing to allow Dr. Jackson’s discovery
deposition to be read into evidence at trial; and (4) refusing to grant defendants’
motion for remittitur.
The jury could have found the following facts. The plaintiff had a history of alcohol
abuse and mental illness. When she drank alcohol, it often elicited feelings of
depression and thoughts of a sexual assault that she experienced as a teenager.
During the day of May 6, 2000, the plaintiff consumed alcohol. That evening, she
drank more alcohol and became increasingly depressed and suicidal. Desiring
treatment for her condition, she drove to Frisbie’s emergency room at approximately
midnight. She chose Frisbie because it was nearby and because she knew that it
advertised mental health services.
Upon arrival, a hospital employee led the plaintiff to an examining room. Dr. Jackson,
the department physician on duty, saw her a few minutes later. She told him that she
had been drinking and had suicidal thoughts involving hanging herself. He asked if
she wanted to see a counselor from the Strafford Guidance Center, an organization
that treats patients with mental illnesses in the hospital. She declined the offer, stating
that she was involved with the Strafford Guidance Center through her work. She told
him that she would see any other counselor or psychologist. He then left the room. He
returned a few minutes later and asked, again, if she would see Strafford Guidance.
She again declined. He told her that he was going to get her help and left the room.
She testified that she assumed he meant that he was going to find another counselor or
psychologist; she had not acted in a disruptive or disorderly manner during her
interactions with him. After he left, she was alone in the examining room and did not
attempt to leave.
During one of the two intervals in which Dr. Jackson left the room, he called the
police. He never told the plaintiff that he intended to do so. After he exited the room
for the second time, the next person into the room was Officer Macaione of the
Rochester Police Department. The plaintiff asked Officer Macaione what he was
doing there, and he responded by asking her questions regarding her alcohol
consumption, her suicidal thoughts, and whether she would take a blood-alcohol test.
She answered that she was intoxicated, that she had suicidal thoughts, and that she
thought a blood-alcohol test was a waste of time and money, since she admitted to
being drunk. Officer Macaione then informed her that he was going to take her to jail,
and handcuffed her.
Another officer arrived at the hospital to assist Officer Macaione. Outside of the
plaintiff’s presence, Dr. Jackson gave one of the officers a note, stating, "Heidi
Carlisle is medically cleared to enter protective custody for suicidal intent and alcohol

App. Pg. No. 12

intake." Officer Macaione then led the plaintiff out of the hospital. On the way out,
the plaintiff saw Dr. Jackson. She told him that she disliked him and that she hated
him for calling the police and having her taken to jail. The plaintiff testified that, had
Dr. Jackson informed her that jail was the alternative, she would have agreed to see a
counselor from Strafford Guidance Center. Upon exiting the hospital, she felt
depressed and betrayed because he never warned her of the possibility of going to jail.
She also felt embarrassed as people watched Officer Macaione lead her out of the
hospital.
Officer Macaione drove the plaintiff to the Strafford County Jail at approximately
1:00 a.m. A guard at the jail kicked her feet apart, frisked her, then searched her. She
asked if she could make a phone call, and the guard said "no." The guard placed her in
a cell with a concrete slab for a bed, a toilet, and a sink. There was another woman in
the cell, who was asleep on the bed. When the plaintiff used the toilet, she was
exposed to both the woman in the cell and anyone walking by in the hallway. She was
in the jail cell for approximately fourteen hours without food, water, or medical
treatment. During that time, she felt betrayed, depressed, and confused about why she
was there. A counselor from Strafford Guidance Center met her at the jail on the
afternoon of May 7. After their meeting, the police released her.
As a result of the events of May 6 and 7, the plaintiff’s mental illness worsened. Her
therapist testified that her experience at Frisbie made her reluctant to trust any medical
professionals or see a therapist. The plaintiff also testified that the betrayal that she
felt after seeing Dr. Jackson made her postpone seeing a therapist for months. During
that time, she drank more heavily, and her depression and thoughts of suicide
intensified. Her mental state affected the quality of her work and caused her to miss
work at the child care business that she ran. The plaintiff also resigned from her job at
the local fire department because she anticipated being fired after showing up to work
intoxicated. She experienced a loss of appetite and, on multiple occasions, called a
friend late at night crying because of the betrayal that she felt at Frisbie.
The plaintiff brought three causes of action against the defendants: (1) violation of
EMTALA against Frisbie; (2) professional negligence against Dr. Jackson; and (3)
violation of the PBR against Frisbie. The jury found for the plaintiff on all three
counts.
I. EMTALA
An overview of the EMTALA statute gives context to our determinations below.
Enacted in 1986, EMTALA requires that hospitals receiving the benefit of federal
Medicare funding take certain steps to ensure appropriate care for emergency room
patients. Correa v. Hospital San Francisco, 69 F.3d 1184, 1189 (1st Cir.

App. Pg. No. 13

1995); see also 42 U.S.C. § 1395dd; Furrow, An Overview and Analysis of the Impact
of the Emergency Medical Treatment and Active Labor Act, 16 J. Legal Med. 325,
325-26 (Sept. 1995). The first step that EMTALA requires emergency rooms to take
is to properly screen, or examine, all patients admitted to the emergency room seeking
medical assistance. Correa, 69 F.3d at 1190; see also 42 U.S.C. § 1395dd(a). If the
patient has an emergency medical condition, EMTALA requires that the hospital
either examine and treat the patient as necessary to stabilize the patient’s condition, or
transfer the patient to another medical facility when such a transfer is relatively safe
and medically advisable. Correa, 69 F.3d at 1190; see also 42 U.S.C. §
1395dd(b)(1)(B), (c)(1). To establish a violation of EMTALA, the plaintiff must
prove:
(1) that the hospital is a participating hospital, covered by EMTALA, that operates an
emergency department (or an equivalent treatment facility); (2) the patient arrived at
the facility seeking treatment; and (3) the hospital either (a) did not afford the patient
an appropriate screening in order to determine if she had an emergency medical
condition, or (b) bade farewell to the patient (whether by turning her away,
discharging her, or improvidently transferring her) without first stabilizing the
emergency medical condition.
Correa, 69 F.3d at 1190.
A. Waived Objections
Frisbie asserts that the plaintiff did not present sufficient evidence from which a
reasonable jury could find that she satisfied the following two elements of an
EMTALA claim: first, that Frisbie was a "participating hospital" under EMTALA;
and, second, that Frisbie improperly "transferred" the plaintiff. Id. The plaintiff argues
that Frisbie waived these issues and is precluded from raising them on appeal. We
agree.
The well-established rule is that an objection to the sufficiency of evidence is waived
unless taken at a time when there may still be an opportunity to supply the deficiency .
. . . [T]he defendant could not lie by until after the evidence, arguments, and charge to
the jury were closed, and then first avail himself of an objection that was open to him,
and which in fairness he ought to have taken as soon as the evidence for the plaintiff
was closed, or, at latest, when the evidence was closed on both sides.
Derosier v. New England Telephone & Telegraph Co., 82 N.H. 405, 405-06 (1926)
(citations and quotations omitted); 5 R. Wiebush, New Hampshire Practice, Civil
Practice and Procedure § 48.12, at 331 (1984) (stating, "[a] Motion for Directed
Verdict may be filed at any time after all the evidence for the moving party’s

App. Pg. No. 14

opponent has been presented and before the case is taken under advisement or the jury
is charged").
Frisbie failed to raise its sufficiency of the evidence objections regarding either
"participation" or "transfer" until after the trial court gave the jury instructions. The
record reveals ample opportunity for Frisbie to have raised objections regarding the
plaintiff’s proof of participation and improper transfer prior to that point. For instance,
after the close of plaintiff’s evidence, Frisbie moved for directed verdict, raising such
issues as the PBR, damages, RSA 239:1, RSA 172-B:1, and deterioration of condition
under EMTALA. Additionally, the trial court gave Frisbie the opportunity to renew its
motion for directed verdict at the close of its case. Frisbie did so, but again failed to
raise either "participation" or improper "transfer." By waiting to raise its sufficiency
of the evidence objections until after the jury instruction, Frisbie deprived the trial
court of opportunities to expediently correct the deficiency of evidence. Frisbie, "[lay]
by until after the evidence, arguments, and charge to the jury were closed," and then
raised its objections. Derosier, 82 N.H. at 406. We conclude, therefore, that Frisbie
waived its objections regarding the sufficiency of evidence presented to support the
"participation" and improper "transfer" elements of EMTALA.
B. Stabilization
Frisbie appeals the trial court’s denial of its motion for directed verdict, arguing that
the plaintiff failed to present evidence from which a reasonable jury could find that
Frisbie did not "stabilize" the plaintiff under EMTALA.
Our review of a trial court’s denial of a motion for a directed verdict is extremely
narrow. We will uphold a denial of the motion where sufficient evidence in the record
supports the ruling. A party is entitled to a directed verdict only when the sole
reasonable inference that may be drawn from the evidence, which must be viewed in
the light most favorable to the nonmoving party, is so overwhelmingly in favor of the
moving party that no contrary verdict could stand.
Carignan v. N.H. Int’l Speedway, 151 N.H. 409, 413-14 (2004) (quotations and
citations omitted).
Frisbie disputes prong (3)(b) of the Correa test, which requires the plaintiff to prove
that she arrived at the hospital with an "emergency medical condition" and that the
defendants either turned her away, discharged her, or improperly transferred her
without first "stabilizing" her "emergency medical condition." Correa, 69 F.3d at
1190.

App. Pg. No. 15

We first consider whether the evidence supports a finding that the plaintiff had an
"emergency medical condition" under EMTALA. EMTALA defines an "emergency
medical condition" as:
a medical condition manifesting itself by acute symptoms of sufficient severity
(including severe pain) such that the absence of immediate medical attention could
reasonably be expected to result in – (i) placing the health of the individual . . . in
serious jeopardy, (ii) serious impairment of bodily functions, or (iii) serious
dysfunction of any bodily organ or part . . . .
42 U.S.C. § 1395dd (e)(1)(A). "Under this definition, a patient will suffer from an
emergency medical condition if he is in imminent danger of death or serious
disability." Pagan-Pagan v. Hospital San Pablo, Inc., 97 F. Supp. 2d 199, 203 (D. P.R.
2000) (quotations omitted).
Frisbie argues that the plaintiff’s depression was not an "emergency medical
condition," and that the plaintiff provided insufficient evidence to prove otherwise.
The plaintiff’s evidence of her emergency medical condition includes her testimony
that she arrived at Frisbie intoxicated and feeling suicidal with a plan to carry out her
suicide. She presented expert testimony that intoxicated, suicidal patients are common
in emergency rooms, that they pose a health risk to themselves, and that they require
persistent monitoring in safe rooms. She also presented expert testimony that
emergency room physicians monitor intoxicated patients’ vital signs to check for
seizure or other serious effects of alcohol withdrawal. Further, an expert witness of
the defendants testified that there was an "overriding concern about the patient’s
safety." The trial court found the above evidence sufficient to support a finding that
the plaintiff’s health was in imminent danger. We agree.
We next consider the evidence regarding whether Frisbie properly "stabilized" the
plaintiff before transferring her out of the hospital. EMTALA defines "stabilize" as
"to provide such medical treatment of the condition as may be necessary to assure,
within reasonable medical probability, that no material deterioration of the condition
is likely to result from or occur during the transfer of the individual from a facility . . .
." 42 U.S.C. § 1395dd(e)(3)(A). A psychiatric patient is considered stable for purposes
of discharge under EMTALA "when he/she is no longer considered to be a threat to
him/herself or others." Thomas v. Christ Hosp. and Medical Center, 328 F.3d 890,
893 (7th Cir. 2003) (applying the Health Care Financing Administration’s definition
of stability for psychiatric patients).
The evidence supporting the plaintiff’s assertion that the hospital failed to stabilize her
included expert testimony from a defense witness that "[t]his patient needed
stabilizing of her suicidal ideation and plan, and she also needed stabilization of her

App. Pg. No. 16

intoxication with alcohol." When asked whether the plaintiff was psychiatrically
unstable when she left the hospital for protective custody, defendants’ expert witness
testified, "Yes, and that is why she was placed in protective custody, because her
psychiatric instability was a threat to her life." The medical records from Frisbie state
that the plaintiff’s disposition was "transferred to jail," that her condition was
"unchanged," and a box entitled "stable" was unchecked. Additionally, the plaintiff
testified that the only steps that Dr. Jackson took to treat her condition before calling
the police were to perform a brief examination and offer for her to see Strafford
Guidance.
Reviewed in the light most favorable to the plaintiff, the evidence is not so
overwhelmingly in favor of Frisbie that no verdict contrary to Frisbie’s could stand.
We therefore agree with the trial court’s decision to deny Frisbie’s motion for directed
verdict.
C. Preemption – Justification
Frisbie argues that, as a matter of law, EMTALA does not preempt state statutes;
therefore, a state statute that justifies Frisbie’s conduct should bar it from civil
liability, even if the state statute conflicts with EMTALA. Frisbie argues that RSA
172-B:3 (1994) justifies Frisbie in contacting the police to take the plaintiff into
protective custody.
The trial court’s determination of preemption is a matter of law, which we review de
novo. Koor Communication v. City of Lebanon, 1, 148 N.H. 618, 620 (2002). "Under
the Supremacy Clause of the Federal Constitution, state law is preempted where: (1)
Congress expresses an intent to displace state law; (2) Congress implicitly supplants
state law by granting exclusive regulatory power in a particular field to the federal
government; or (3) state and federal law actually conflict." Id. (quotations omitted).
EMTALA’s preemption provision provides, "The provisions of this section do not
preempt any State or local law requirement, except to the extent that the requirement
directly conflicts with a requirement of this section." 42 U.S.C. § 1395dd(f). Frisbie’s
argument that EMTALA disclaims all preemption of state laws is incorrect. The
provision explicitly states that when EMTALA and a state law conflict, EMTALA
preempts the state law. "An actual conflict exists when it is impossible for a private
party to comply with both state and federal requirements or where state law stands as
an obstacle to the accomplishments and execution of the full purpose and objective of
Congress." Koor, 148 N.H. at 621 (quotations omitted).
We now address Frisbie’s claim that EMTALA does not preempt RSA 172-B:3. RSA
172-B:3 provides:

App. Pg. No. 17

I. When a peace officer encounters a person who in the judgment of the officer is
intoxicated . . . the officer may take such person into protective custody and shall take
whichever of the following actions is, in the judgment of the officer, the most
appropriate to ensure the safety and welfare of the public, the individual, or both:
....
c. Lodge the person in a local jail or county correctional facility for said person’s
protection, for up to 24 hours or until the keeper of said jail or facility judges the
person to be no longer intoxicated.
Frisbie argues that, as a matter of law, RSA 172-B:3, I(c) justified its conduct in
contacting the police. Frisbie contends that RSA 172-B:3, I(c) permitted the
defendants to call the police for the purpose of taking the plaintiff out of Frisbie and
putting her in jail.
Applying the definition of "actual conflict," we determine that there was an actual
conflict between EMTALA and the conduct that Frisbie argues RSA 172-B:3, I(c)
permits. It is well established that one of Congress’ purposes in enacting EMTALA
was to prevent hospitals from transferring patients without first assessing or
stabilizing the patients’ emergency conditions. E.g., Rodriguez v. American Intern.
Ins. Co. of Puerto Rico, 402 F.3d 45, 47 (1st Cir. 2005). To accomplish this goal,
EMTALA provides that a hospital must stabilize a patient before transferring that
patient, except in limited circumstances, none of which Frisbie claims occurred. 42
U.S.C. § 1395dd(c)(1). For a hospital to summon a police officer for the purpose of
removing an intoxicated, unstabilized person from the hospital and take that person to
jail before that person is stabilized would stand as an obstacle to the execution of
Congress’ purpose in enacting EMTALA, because it would permit the hospital to
ignore ETMALA’s stabilization requirement. Under the circumstances of this case,
we determine that RSA 172-B:3 conflicted with EMTALA, and that EMTALA
preempted it.
D. Preemption - Jury Instruction
Frisbie argues that the following portion of the trial court’s jury instruction on
EMTALA misled the jury: "[Y]ou must find that the hospital failed to transfer the
plaintiff to a medical facility for appropriate medical treatment." Frisbie argues that
this instruction essentially directed a verdict for the plaintiff and ignored the other
statutes that could have applied to transferring the plaintiff out of the hospital.
We review the adequacy of jury instructions as follows:

App. Pg. No. 18

The purpose of jury instructions is to identify issues of material fact, and to inform the
jury of the appropriate legal standards by which it is to resolve them. A jury charge is
sufficient as a matter of law if it fairly presents the case to the jury such that no
injustice is done to the legal rights of the parties. In a civil case, we review jury
instructions in context to determine if the charge, taken in its entirety, fails to explain
adequately the law applicable to the case in such a way that the jury could have been
misled.
Broughton v. Proulx, 152 N.H. ___, ___, 880 A.2d 388, 394 (2005).
By isolating one sentence of the trial court’s EMTALA instruction, Frisbie
characterizes the instruction as a command from the court requiring the jury to find an
inappropriate transfer. Examining the disputed instruction in context, we conclude that
the trial court stated it as one element required for proving an EMTALA violation.
The trial court instructed the jury that there are three elements required for proving an
EMTALA violation: (1) "you must first find that the plaintiff presented to the
emergency room with an emergency medical condition"; (2) "next you must find that
the plaintiff was transferred from an emergency room before her emergency condition
stabilized"; and (3) the disputed instruction.
We disagree with Frisbie’s argument that the disputed jury instruction is an incorrect
statement of law. EMTALA requires that, "if an emergency medical condition exists,
the participating hospital must render the services that are necessary to stabilize the
patient’s condition . . . unless transferring the patient to another facility is medically
indicated and can be accomplished with relative safety." Rodriguez, 402 F.3d at 47.
The disputed instruction, and the two elements that the trial court stated before it,
encompassed EMTALA’s requirements. As for the disputed instruction, transfer from
a hospital is an option under EMTALA, but it must be to another medical facility or
the hospital has violated EMTALA. See id. The disputed jury instruction adequately
stated this requirement. We therefore conclude that the trial court’s instruction
accurately explained the law of EMTALA in such a way that the jury could not have
been misled.
II. Professional Negligence
A. RSA 329:31
Dr. Jackson first argues that the plaintiff’s professional negligence claim should not
have gone to the jury because, as a matter of law, RSA 329:31 (1995) provides a
complete defense to civil liability. Entitled, "Civil Liability; Duty to Warn," RSA
329:31 provides:

App. Pg. No. 19

I. A physician licensed under this chapter has a duty to warn of, or to take reasonable
precautions to provide protection from, a client’s violent behavior when the client has
communicated to such physician a serious threat of physical violence against a clearly
identified or reasonably identifiable victim or victims, or a serious threat of substantial
damage to real property.
II. The duty may be discharged by, and no monetary liability or cause of action may
arise against, a physician licensed under this chapter if the physician makes
reasonable efforts to communicate the threat to the victim or victims, notifies the
police department closest to the client’s or potential victim’s residence, or obtains
civil commitment of the client to the state mental health system.
Dr. Jackson argues that the plaintiff’s statement that she had contemplated suicide was
a "serious threat of physical violence" and made her a "clearly identified victim"
under RSA 329:31, I. Therefore, Dr. Jackson concludes, he was not negligent in
calling the police because RSA 329:31, II required him to do so to satisfy his
statutorily created duty to warn.
We apply the following standard of review for statutory interpretation:
The interpretation of a statute is a question of law, which we review de novo. We are
the final arbiters of the legislature’s intent as expressed in the words of the statute
considered as a whole. We first examine the language of the statute, and, where
possible, ascribe the plain and ordinary meanings to the words used. When a statute’s
language is plain and unambiguous, we need not look beyond it for further indication
of legislative intent, and we will not consider what the legislature might have said or
add language that the legislature did not see fit to include.
Woodview Dev. Corp. v. Town of Pelham, 152 N.H. 114, 116 (2005) (citations
omitted). "If a statute is ambiguous, however, we consider legislative history to aid
our analysis. Our goal is to apply statutes in light of the legislature’s intent in enacting
them, and in light of the policy sought to be advanced by the entire statutory
scheme." Hughes v. N.H. Div. of Aeronautics, 152 N.H. 30, 38-39 (2005).
A plain reading of RSA 329:31 reveals that the statute does not apply to threats of
suicide. We have previously recognized that "[t]he subject matter embraced by RSA
329:31 is limited to a physician’s duty to warn of a client’s violent behavior when the
client has communicated a serious threat of physical violence against a clearly
identified or reasonably identifiable victim." Powell v. Catholic Med. Ctr., 145 N.H.
7, 11 (2000). There is no warning necessary for a threat of suicide, because the
potential attacker and potential victim are the same person. The victim already knows
of the danger.

App. Pg. No. 20

Further, one way in which RSA 329:31 allows a physician to satisfy the duty to warn
is to "make[] reasonable efforts to communicate the threat to the victim." RSA
329:31, II. It would be illogical for the statute to allow doctors to discharge their
duties of protecting the victim simply by informing potential suicide victims that they
have threatened to kill themselves. We will not interpret the statutory scheme to yield
this seemingly illogical result. Town of Lyndeborough v. Boisvert Properties, 150
N.H. 814, 819 (2004).
Even if there is ambiguity in RSA 329:31, our interpretation comports with the
legislative intent for the statute. The House and Senate enacted RSA 329:31 as part of
a bill entitled "An Act Relative to a Duty to Protect Third Persons." Laws 1986, ch.
175. The context in which the legislature intended RSA 329:31’s duty of care to arise
was clearly when a patient threatened a third person. Additionally, we note that the
House Judiciary Committee’s report on the bill containing RSA 329:31 states, "This
bill limits the civil liability of certain medical and mental health providers . . . so long
as the providers contact the threatened victim, or the police, or seek civil
commitment." N.H.H.R. Jour. 622 (1986). This language shows that the legislature
intended to reduce the liability of medical professionals by providing them with a
manner in which they could satisfy their duties to warn. It would be contrary to our
goal of advancing the policies of a statutory scheme to interpret RSA 329:31 as
imposing on physicians a duty to warn potential suicide victims of their own threats to
kill themselves. Doing so would increase, rather than decrease, physician liability by
creating a potential cause of action for patients who subsequently commit suicide. For
the above reasons, the trial court did not err in declining to adopt Dr. Jackson’s
interpretation of RSA 329:31 as a complete defense to liability in this case.
B. RSA Chapter 627
Dr. Jackson argues that the plaintiff’s professional negligence claim should not have
gone to the jury because RSA chapter 627 (1996) provided a complete defense to civil
liability. Dr. Jackson primarily relies on RSA 627:6, VI, which states: "A person
acting under a reasonable belief that another person is about to commit suicide or to
inflict serious bodily injury upon himself may use a degree of force on such person as
he reasonably believes to be necessary to thwart such a result." Dr. Jackson argues
that he sufficiently proved that he had a reasonable belief that the minimal force
involved with protective custody was reasonably necessary to thwart the plaintiff’s
potential suicide. Dr. Jackson raised this argument in his motion for judgment
notwithstanding the verdict below.
"Motions for directed verdict and motions for judgment notwithstanding the verdict
are essentially the same, though made at different stages of the trial, and they are
governed by identical standards." Thompson v. The H.W.G. Group, Inc., 139 N.H.

App. Pg. No. 21

698, 699, (1995). We therefore apply the same standard for sufficiency of the
evidence that we used to address Frisbie’s motion for directed verdict.
RSA 627:6, VI requires that the defendant believe that the degree of force he uses to
thwart an attempt at suicide be reasonably necessary, which we determine using an
objective standard. State v. Leaf, 137 N.H. 97, 99 (1993). A belief that is
unreasonable, even though honest, will not support this defense. Id. It is for the jury to
determine whether the belief, even though honest, was in fact reasonable under all the
circumstances. Id.
For Dr. Jackson to prevail on appeal, he must show that the sole reasonable inference
that may be drawn from the evidence presented at trial is that he objectively believed
that he applied a degree of force reasonably necessary to thwart the plaintiff’s attempt
at suicide. To support his argument, Dr. Jackson simply states that whether his use of
force was reasonably necessary "should be undisputed, as the plaintiff in fact did not
commit suicide." We disagree. At trial, the plaintiff presented two expert witnesses
who stated that there were less harmful ways in which Dr. Jackson could have treated
the plaintiff and kept her safe from harm. These experts testified that Dr. Jackson
violated his duty of care by placing the plaintiff in protective custody instead of
pursuing other treatment options. Viewing this evidence in the light most favorable to
the plaintiff, we find that the evidence is not so overwhelmingly in favor of the
defendant that no contrary verdict could stand. The trial court, therefore, did not
commit an unsustainable exercise of discretion when it denied Dr. Jackson’s motion
for judgment notwithstanding the verdict.
C. Jury Charge
Dr. Jackson argues that the trial court’s jury instruction regarding professional
negligence was erroneous as a matter of law. Specifically, he asserts that the
instruction: (1) erroneously imposed upon him a duty to hold the plaintiff against her
will at the hospital; and (2) erroneously granted rights to caregivers, contrary to
section IX of the PBR.
We review the jury instruction under the standard from Broughton, 152 N.H. at ___,
880 A.2d at 394-95, that we set forth above.
The trial court gave the following jury instruction:
Under New Hampshire law, a physician is authorized to use chemical and physical
restraints on a patient when he or she authorizes it in writing, for a specific and
limited time necessary to protect a patient or others from injury. In an emergency,

App. Pg. No. 22

restraints may be authorized by the designated professional staff member in order to
protect the patient or others from injury.
This jury instruction is based upon section IX of the PBR, which states, in pertinent
part:
The patient shall be free from chemical and physical restraints except when they are
authorized in writing by a physician for a specific and limited time necessary to
protect the patient or others from injury. In an emergency, restraints may be
authorized by the designated professional staff member in order to protect the patient
or others from injury.
RSA 151:21, IX.
Dr. Jackson points to no language in the disputed jury instruction that imposed a duty
upon him, particularly any duty not already imposed by the PBR. Further, the words
"duty" or "shall" are not present in the disputed instruction. Generally, it is the word
"shall" that imposes a duty in statutory language. American Exp. Travel v. Moskoff,
144 N.H. 190, 191 (1999); see also Town of Hudson v. Baker, 133 N.H. 750, 752
(1990). Dr. Jackson does not explain why he believes the trial court’s charge creates a
duty, and we can find no language in the charge that does so.
Dr. Jackson next argues that the trial court’s instruction granted rights to caregivers
when the PBR does not grant any rights to caregivers to restrain patients contrary to
the PBR. We conclude that Dr. Jackson has misinterpreted the PBR. The second
sentence of the disputed instruction and the second sentence of section IX of the PBR
are identical. Both grant caregivers the right to protect the patient or others from
injury by restraining the patient. Since the trial court quoted from a statute allowing
physicians to restrain patients, it is untenable for Dr. Jackson to argue that the
instructions were erroneous because they misled the jury into thinking that physicians
have a right to restrain patients.
We therefore conclude that Dr. Jackson failed to prove that the instruction
inadequately explained the law applicable to the case in such a way that the jury could
have been misled. The charge fairly presented the case to the jury such that no
injustice was done to the legal rights of the parties.
III. Patients’ Bill of Rights
Frisbie argues that the trial court erred by interpreting the PBR as creating an
independent cause of action. There was no basis, Frisbie asserts, for the trial court to
find that the legislature intended to create a private right of action under the PBR that

App. Pg. No. 23

would be independent from a standard medical negligence claim. Frisbie relies
upon In re "K", 132 N.H. 4 (1989), for this proposition, arguing that this case states in
dicta that the PBR does not purport to establish a standard of care in a professional
negligence action under RSA chapter 507-E (1997).
We apply the standards for statutory interpretation that we set forth above. Woodview,
152 N.H. at 116; Hughes, 152 N.H. at 38-39.
Frisbie’s argument that the PBR does not establish a private right of action is
incorrect. The PBR explicitly provides for private relief against a hospital. Entitled
"Equitable and Other Relief," RSA 151:30 provides that "[d]amages shall be assessed
in a proceeding against a facility which violates this subdivision and the facility shall
be liable for . . . all damages proximately caused by the violations." RSA 151:30, II.
Frisbie’s reliance upon In re "K", therefore, is misplaced, because the statutory
language plainly establishes a private cause of action for violation of the PBR, which
is separate from the question of whether there was professional negligence under RSA
chapter 507-E.
IV. Dr. Jackson’s Deposition
The defendants next argue that the trial court erred by declining to admit Dr.
Jackson’s discovery deposition as evidence. Both parties deposed Dr. Jackson in
2001. Several weeks before trial, however, he informed defense counsel by letter, with
no return address, that he would not appear at trial. The defendants argue, in
conclusory fashion, that the letter was sufficient to show that Dr. Jackson was
"unavailable" pursuant to Rule 804(b)(1) of the New Hampshire Rules of Evidence.
We review a trial court’s evidentiary rulings under an "unsustainable exercise of
discretion" standard. Carignan, 151 N.H. at 416. We reverse the trial court’s
determination "only if the rulings are clearly untenable or unreasonable to the
prejudice of a party’s case." Id.
Rule 804(b)(1) creates a hearsay exception for the prior testimony of an unavailable
witness when the witness gave that testimony at another hearing or
deposition. Barrows v. Boles, 141 N.H. 382, 394 (1996). A witness is "unavailable"
when the witness "is absent from the hearing and the proponent of the witness’
statement has been unable to procure the witness’ attendance . . . by process or other
reasonable means." N.H. R. Ev. 804(a)(5). Rule 804(a)(5), therefore, permits
admission of a deposition only if the proponent adequately shows that he cannot
procure the witness to testify. LeBlanc v. Publow, 129 N.H. 117, 120 (1987).

App. Pg. No. 24

The trial court found that the defendants did not adequately show that they could not
procure the witness to testify, stating: "I interpret Rule 804 to require that efforts be
made to procure the witness’s attendance and, frankly, based on what I’ve heard, I
don’t believe there’s been an adequate effort to procure the witness’s testimony." We
agree. The defendants did not argue at trial that they had no way of contacting Dr.
Jackson. In fact, defense counsel admitted twice at trial that Dr. Jackson had provided
counsel with a post-office box at which to reach him. Defense counsel did not send a
letter explaining the importance of Dr. Jackson’s attendance at trial or attempt in any
other manner to further communicate with him. It appears from the record that
defense counsel received Dr. Jackson’s letter and did nothing to persuade him to
appear at trial. Based upon the above, we conclude that the trial court properly
exercised its discretion by declining to admit Dr. Jackson’s discovery deposition as
evidence.
V. Damages
A. Emotional Distress and Reluctance to Seek Treatment
The defendants argue that the trial court erred by allowing a damage recovery for the
plaintiff’s claims of emotional distress and reluctance to seek treatment when no such
instruction was before the jury. The plaintiff responds that the defendants waived this
argument by failing to properly object at trial.
"It is well established that a party must make a specific and contemporaneous
objection during trial to preserve an issue for appellate review. This requirement
affords the trial court an opportunity to correct any error it may have made and is
grounded in common sense and judicial economy." Broughton, 152 N.H. at ___, 152
N.H. at ___, 880 A.2d at 391 (citations omitted). All objections to a jury charge are
waived unless taken on the record before the jury retires. Super. Ct. R. 72; Daigle v.
City of Portsmouth, 129 N.H. 561, 583 (1987).
The trial court gave a broad instruction on damages. The court stated that the damage
award should be "full, fair and adequate" and that the award should compensate the
plaintiff and make her whole. The trial court did not specifically instruct on emotional
distress, reluctance to seek treatment, or on any other damage claim that the plaintiff
made. After the jury instructions, the trial court gave both parties ample opportunity to
object to the instructions. If the defendants wanted to exclude any consideration of
emotional distress or reluctance to seek treatment in the damage award, they should
have asked the court to instruct the jury that it could not award such damages. The
defendants failed to do so. Because the defendants did not object to the instructions
that permitted the jury to award damages for emotional distress or reluctance to seek

App. Pg. No. 25

treatment, the defendants are precluded from arguing that we should not consider such
damage claims when reviewing the amount of damages awarded.
B. Remittitur
The defendants finally argue that the trial court erred by denying their motion for
remittitur. The defendants assert that the damage award was excessive.
A trial judge has the responsibility to review a verdict. Carignan, 151 N.H. at 415. The
trial court may disturb the verdict as excessive if the amount is conclusively against
the weight of evidence and if the verdict is manifestly exorbitant. Id. "The proper
standard for the trial court’s review of a jury award is whether the verdict is fair . . . .
Whether remittitur is appropriate rests with the trial court’s sound discretion. Absent
an unsustainable exercise of discretion, we will not reverse the trial court’s
decision." Id. (citations omitted).
In determining the propriety of the damage award, the trial court considered
uncontroverted evidence that the plaintiff was handcuffed and placed in a jail cell
overnight. The trial court found that this experience restrained her liberty and created
both a physical impact and a psychological impact. The trial court considered
testimony from the plaintiff’s therapist, who stated that the incarceration exacerbated
the plaintiff’s alcoholism. The therapist testified that the plaintiff suffered from
feelings of shame and low self-esteem due to her incarceration. The therapist also
testified that the plaintiff’s experience at Frisbie, and subsequent incarceration, made
treatment of her psychological issues more difficult, because the plaintiff became
reluctant to trust medical professionals. A friend and employee of the plaintiff
testified that, after the plaintiff’s incarceration, her mental state deteriorated. The
employee stated that the plaintiff missed work more frequently, reported feeling
humiliated, experienced significant losses of both appetite and sleep, and, on multiple
occasions, called the employee crying in the middle of the night. The plaintiff testified
that, after the incarceration, her depression and thoughts of committing suicide
intensified, she withdrew from social activities, her abuse of alcohol increased, and
she resigned from her job at the Somersworth Fire Department because she
anticipated being fired after showing up to work intoxicated. Based upon the above
facts, we conclude that the trial court did not commit an unsustainable exercise of
discretion in finding that the award was neither against the weight of evidence nor
manifestly exorbitant.
Affirmed.
BRODERICK, C.J., and DALIANIS and DUGGAN, JJ., concurred.

App. Pg. No. 26

Appendix Item No. 5
Counsel’s affirmation
in support
of applicant’s petition
for habeas corpus.

App. Pg. No. 27

COUNSEL’S AFFIRMATION IN SUPPORT
OF APPLICANT’S PETITION
FOR HABEAS CORPUS
Alexey V. Tarasov, an attorney duly admitted to practice in the courts of the state of
Texas, affirms, under penalty of perjury, pursuant to Texas Civil Practice and Remedies Code §
132.001, as follows:
1.

I represent applicant Jeffrey McClatchy and am fully familiar with the facts herein.

2.

Since about September of 2018, I have been engaged in preparing a habeas corpus petition

on behalf of Jeffrey McClatchy.
3.

My efforts to gather new evidence in the matter of Jeffrey McClatchy have led me to travel

from Texas to New Hampshire.
4.

During my travel, I visited the Supreme Court of New Hampshire and thoroughly examined

the files from a case Carlisle v. Frisbie Memorial Hospital, 152 N.H. 762 (2005).
5.

I have studied the facts and the legal claims of the New Hampshire civil from the relevant

court records.
6.

The New Hampshire civil case arose from Carlisle’s arrest during a visit to a hospital.

7.

At the time of her detention in the early morning of May 6, 2000, Heidi Carlisle operated a

childcare business and worked for a local fire department. Tr. I, 23. 1 She had a history of
depression and alcohol abuse. Tr. I, 29. On May 5, 2000, she had five beers during the day and
two mixed drinks for dinner. Tr. I, 28-29. After dinner, Ms. Carlisle decided to go to a hospital.
Tr. I, 29. She chose Frisbie Memorial Hospital (“Frisbie”) because it was nearby and on a prior
visit, she had seen a poster there advertising comprehensive services. Tr. I, 30. She arrived
between 11 P.M. and 12 A.M. Tr. I, 32. She had her blood pressure taken and then saw Dr. John

1

Reference to trial transcripts from Carlisle v. Frisbie Memorial Hospital, stored at the New Hampshire Supreme
Court.

App. Pg. No. 28

Jackson, an emergency physician, who performed a brief exam. Id. The exam was negative. See
Plaintiff’s Exhibit 2. She told him she had been drinking and had thoughts involving using a
rope. Tr. I, 33. In filling out the medical intake form, under neuro/psych, Dr. Jackson circled
depressed affect and suicidal ideation, and under clinical impression, ethanol intoxication and
suicide ideation. Id. at 227. Dr. Jackson then left the examining area and told her he was going to
get her some help. Tr. I, 34. When Dr. Jackson returned, he came with an officer from the
Rochester Police Department who told Ms. Carlisle she was going to jail and put handcuffs on
her. Tr. I, 37. Ms. Carlisle was then driven to the Strafford County jail in a police cruiser. Heidi
Carlisle testified at trial that after her discharge from incarceration she began drinking more
frequently and her depression worsened, which in turn affected the quality of her work. Tr. I, 5759. She had to resign her fire department position because she appeared at a call with alcohol on
her breath. Id.
8.

Ms. Carlisle eventually brought three causes of action against the defendants: (1) violation

of the Emergency Medical Treatment & Labor Act against Frisbie; (2) professional negligence
against Dr. Jackson; and (3) violation of the Patients’ Bill of Right against Frisbie.
9.

The jury found for the plaintiff on all three counts. At the conclusion of the proceeding,

Heidi Carlisle won a $500,000 judgment against Frisbie Memorial Hospital.
10. In examining the files from the above-mentioned civil matter, I discovered the following
passages that are relevant to Jeffrey McClatchy’s habeas petition:
Q.: In fact, the evening that this occurred, the Frisbie incident occurred,
you are aware that according to the Rochester police, you made a claim,
at first, and later withdrew it, you first made a claim that you were
sexually assaulted at the jail. Isn’t that correct?
A.: Um, I didn’t make a claim about being sexually assaulted at the jail
here. I know that I have a history of having flashbacks to when I had
been, um. As far as what the Rochester PD says, I can’t – I can’t account

App. Pg. No. 29

for what they’re telling you. Whether or not I was possibly having a
flashback at the moment that I was speaking with him, uh, whoever it is, I
don’t know.
See Tr. 239. 2
....
Q.: In fact, it was an exhibit at your deposition, but I’ll show it to you.
Written by an Officer Wayne Perrault, and he says, in part, that you
advised him that you were sexually assaulted, correct?
A.: May I read it?
Q.: Sure. Absolutely.
See Tr. 240.
....
Q.: And you told to Dr. Hanna, did you not, and this would have been in
April of 2003, just less than a year ago, that, quote, “I make accusations
that I am being sexually abused by whoever is with me.” Didn’t you say
that to Dr. Hanna?
A.: I believe that I presented it to him as if other people have made that,
have made that claim, that I’ve talked about it. I was fishing from him,
um -- I know that when people have flashbacks they’re not completely,
you know, with it, their mind is someplace else. So, I believe that my
conversation with him about that was ... pretty much to try to find out
whether or not I was, um, experiencing flashbacks when I wasn’t aware of
it.
See Tr. 244.
....
Q.: The whole statement is, in quotes. . . . “I struggle with depression and
all my therapists hate me. When I drink alcohol I have flashback of sexual
abuse that happened when I was 18. I can’t be alone. I make accusations
that I’m being sexually abused by whoever is with me.” . . . .
A.: I don’t know what to say about that, actually. Um, I remember
presenting it to him that – I know that through our deposition that that
2

Reference to trial transcripts from Carlisle v. Frisbie Memorial Hospital, stored at the New Hampshire Supreme
Court.

App. Pg. No. 30

was something that you mentioned to me, and I did not have any
recollection of that at all. Um, I know that I’m not the most, the best wellversed person when I’m with therapists, um, so I believe that I was
attempting to find out from him whether or not, um, flashback occur
when I’m not aware of them.
See Tr. 245.
11. In the course of the New Hampshire lawsuit, Ms. Carlisle said to her psychiatrist that she
accuses of sexual assault whoever she happens to be with when she drinks. In the New
Hampshire case, she accused the security guard at the hospital initially of sexual abuse, but then
said that was just because of intoxication. 3 She also made a complaint against Strafford
Guidance, a psychiatric facility that she was offered to go to in lieu of spending the night in jail.
Id. She also considered filing a suit against her psychiatrist in Florida. Id.
12. The fact that Heidi Carlisle had a history of making up or imagining instances of sexual
assault gives rise to an inference that she likely was not genuine in her accusation of Jeffrey
McClatchy.

3

Transcripts of closing arguments in Frisbie at 3-4.

App. Pg. No. 31

Unsworn Declaration under Texas Civil Practice and Remedies Code § 132.001

My name is Alexey Tarasov.
My date of birth is: 12/15/1985, and my address is: 5211 Reading Road, Rosenberg,
Texas 77471.
I declare under penalty of perjury that all information contained in the Counsel’s Affirmation in
Support of Applicant’s Petition for Habeas Corpus, is true and correct to the best of my
knowledge.
Signed in Fort Bend County, Texas, on this date: 4/29/2020

______________________________
___________
__________
_ ____________
Signature
i

App. Pg. No. 32

Appendix Item No. 6
Memorandum from the
Harris County District
Attorney’s Office, Dec. 6,
2012.

App. Pg. No. 33

App. Pg. No. 34

App. Pg. No. 35

App. Pg. No. 36

App. Pg. No. 37

Appendix Item No. 7
Letter addressed to the
sentencing judge from
Jeffrey McClatchy.

App. Pg. No. 38

App. Pg. No. 39

App. Pg. No. 40

App. Pg. No. 41

App. Pg. No. 42

App. Pg. No. 43

App. Pg. No. 44

App. Pg. No. 45

App. Pg. No. 46

Appendix Item No. 8
Police statement given
by the victim.

App. Pg. No. 47

CW Statement
– My name is Deputy Investigator David HoDQJ(phonetic) with Harris County Sheriff’s Office.
I’m assigned to the Adult Sexual Crimes Unit with the Harris County Sheriff’s Office. We’re
located at
I’m conducting a
sexual assault investigation on the case number 12-152229. Today is Saturday 11/3/2012. The
time is 7:37 PM and your address is…
–

Florida

.

– Okay, what’s your address in Houston, Texas?
–

.

– Telephone number.
–
– You date of birth.
–
– That makes you how old.
– 44.
– Your driver license with the state?
– Florida.
– And your driver’s license number?
– I don’t know. I have to look.
– Are you here to give me a voluntary statement?
– Yes.
– Why am I here, mam?
– Because I called the police for somebody trying to kill me and somebody raping me.
– Okay, so, what? What are we talking? What? What am I here to do for you?
– To? Uh, make sure this man does not come back here and kill me.
– Okay, so, am I investing the assault part of this deal or the sexual assault? What do you want
me to do?
– I’m under the impression that you’re investigating both the sexual assault and what I call the
attempted murder.
– Okay.

App. Pg. No. 48

– How long did you know the suspect?
– Less than 24 hours.
– Do you know his name?
– Roma.
– How do you spell that?
– I’m assuming R-o-m-a.
– So, how did you and the suspect meet.
– I met him outside the liquor store across the street.
– When did you meet him?
– Uh, last night.
– Approximately 8:55.
– Last night, will be Friday, November the second?
– Yeah.
– 2012.
– And that liquor store across the street. You said.
– Yes. Not in it. I met him outside of it.
– How do you know you were raped?
– How do I know I was raped? Um, because he pushed me in the bedroom with a knife onto the
bed and pulled his pants down and told me he was going to rape me and for me to cooperate with
him. I did not cooperate with him. I was trying to fight him. And he, uh, started choking, me
until I passed out. And I, uh, tried fighting him. I got, I regained consciousness.
– Did he sexually assault you before he choked you out or after he choked you out?
– His pants were down before he started choking me. He pulled, not all the way down. But he
had pulled his penis out. And I knew his intentions were to have sex with me.
– So, did he sexually assault you before he choked you out? Or when you were passed out.
– When I was passed out and after I regained consciousness.
– How do you know that you were sexually assaulted when you’re passed out?
– Because I woke up with him on top of me.
– And did you tell him? Did you give him consent to have sex with you? Did you tell him
anything?

App. Pg. No. 49

– After I regained consciousness? Yes. I told him he could do whatever he wanted. I told him I
wanted to cooperate. Please don’t hurt me. If you wanted to have sex with me all you had to do
was ask. Um I was struggling with him and he turned me over and put his penis in my rear end.
And I told him that that hurt, that I didn’t want to do that.
– Where did the incident happen at?
– In my bedroom.
– Okay.
– At the apartment complex that you gave me, provided to me?
– Yes.
– And it happened today, November 3, 2012, which is a Saturday. About what time?
– About 30 minutes before 911 was called.
– What time?
– I don’t know.
– Maybe six o’clock.
– I really have no idea. I had been in bed for most of today.
– Roughly 6 PM. 7:42 right now.
– It was about 30 minutes before 911 was called. That’s all I know.
– Where’s your phone.
– I didn’t use the phone. I ran out of here and I used somebody else’s phone.
– Okay, so, roughly what? 6 to 7?
– Yeah.
– Have you had sex with anybody? 24 hours to 96 hours before the sexual assault.
– I had sex with him last night, consensually. Other than that, no.
– Okay. So, go ahead and tell me on Friday, on the 2 around 8:55 PM, what happened?
– I was going to liquor store to get a small bottle of tequila. I saw him outside. He looked kind of
lost to me. I said hello. Went to liquor store, got what I needed. When I came outside, he was
still there. He looked kind of lost. So, I said, hey, you know, how’s it going, to strike up a
conversation with him. He told me. I said, I can remember the exact words, but I said something:
looks like, did somebody leave you here? Are you? You look like you don’t want to be here. And
he explained to me that a lawyer, um, from when he spent, uh, time in Austin with a lawyer and
the lawyer left him there. And he said that the lawyer, uh, uh, that he was homeless. That the
lawyer, he did have some place to stay temporarily with the guy, but he, uh.

App. Pg. No. 50

– Speed up. So, you met him. You had a conversation? What else?
– I and I said, won’t you come home with me? I’ll help you. And, uh, so, he came here with me.
Uh, and I had the tequila that I’d bought. He had probably about a shot of it, and we had sex
probably within the hour. Um, we start talking more, and he told me that he, uh you know,
wanted somebody to help him, that I didn’t want the lawyer to know. You know, the lawyer
knew where he lived, and he didn’t want anything to do with lawyer anymore. He was living
with a man named Kevin. And he wanted to go back to where he was staying. That man, Kevin,
uh, helped homeless people and he wanted to get his stuff and come here and stay here. And I
said, that’s fine. Let’s do that. I don’t want you to be uncomfortable. You know, he’s told me
that lawyer gave him crack and that the lawyer was doing sexual games with him. I told him I
couldn’t drive. I said, you know, I’ve had too much to drink. You haven’t. You know, if we go
pick up your stuff, you need to drive. We stuck it in my GPS. We drove to Kevin’s house and he
told Kevin that, uh, he was leaving, and he called me his mom, um, to Kevin. He said this is my
mom. Ah. Kevin didn’t seem to... Whatever. You know, he’s just fine. So, he picked up a few
things that he had at Kevin’s. We drove back here, um, I started feeling very ill, and I, uh, I
threw up till the sun rose. I was going in and out of the bathroom throwing up.
– Okay.
– I felt very ill.
– When you had sex last night and you say it was consensual, was rough sex? How was it?
– I actually hit on him. I put my arm around him, and I said do you want to have sex pretty
much.
– So, when you are having sex, was it rough?
– No.
– Did he spank you in the ass, did he pull your hair, did he choke you?
– Nothing.
– Did you do the same thing to him?
– No, I didn’t. We didn’t hit each other. It was very passive. And, uh, uh, it was passive. It
wasn’t rough at all.
– Not rough. Okay. Okay.
– Let’s go to this morning. So, you’re up all day, all night. In the morning time, what happened.
Why is he sleeping out here for? Well, tell me what happened. So, in the morning?
– Well, before I went to sleep. You know, I said, uh, you know, you’re looking for somebody to
help you, I said, uh, if you want to view me as being your mom, I said, I can’t sleep with you.
You know, you can’t do that. I said, you know, here I had two mattresses in my room. I pull the
top one off, put out here, and I said, spend the night here, Put your things in my closet. You
know, we’d already been to Kevin’s. That’s that. You know. Um, you know, so, he slept here.

App. Pg. No. 51

Um, he was up almost all night and he knew I was getting up and throwing up on and off all
night until dawn. Um, and, uh, I told him I said, you don’t want to talk to you. I’m getting sober.
I’m thinking, Oh, my God. I should not have brought this guy here with me. And I said, uh, you
know, we’re going talk a little bit later. I say, I feel too ill right now. Okay. Um, later on, I
invited him to come into the bedroom. I was laying in bed.
– What time?
– I have no clue. But I want to say probably prior, around 3:30 in the afternoon and he came into
the room. I said, please have a seat at the desk, and he did. And I said, you know, uh, I’m gonna
help you, but it really, uh it wasn’t a good idea for me to have you come here. I said, my
roommate’s gonna freak out. I tell her not to bring people home all the time. I said, you know, I
want to take you back to Kevin’s. You seem comfortable with him. I said, I know you don’t want
the lawyer, uh, to be around you anymore. I said that Kevin seems like a helpful person you’ve
described him that way. I said, this is what we’re gonna do. I said, uh, you know, I told you, you
could come to Florida and I’ll help you. I said, I’ve been through adoption process in Florida, the
pre-classes or whatever they call those. And I said, I know that you being 19 years old, that they
typically in Florida help people until they turn 21. I said, they pay for your college education,
they’ll pay for medical and what not. But what I’d like you to do is write down my name, you
know, write my full name. Write down my phone number. He did. He had two pieces of paper.
He wrote down my name and phone number. And then I asked him, and I told him to write down
on there, that you’re gonna look into getting your GED. I said, I don’t think you’ve got a
computer. I said, you know, maybe Kevin can help you with that. He said Kevin would. So, he
said he was gonna write that down. And I said, what I’m gonna do is when I start feeling a little
bit better, I said, I’m going to get up, and we’re gonna drive you back to Kevin’s house, and
you’re gonna stay there. I said I’m leaving here in a month, but that’ll give you, get you time to
figure out what you need to do. I said I’ll call Social Services on Monday, I said, give me, write
your name down on a piece of paper. Um, and, uh, your phone number. I’m assuming he did
that. Um, and we talked more about, a little bit more about that. I don’t remember exactly what it
was, but it was along those lines. Then you know, he left the bedroom and I got up. And I, uh no,
it was getting some, something to drink out of the refrigerator, and he gave me a piece of paper.
He had a box with case stuff. He said it was SSI stuff. He’s trying get Social Security. And he
said here, I’ve got an extra piece of paper. It has my information on it. I said, good. You know,
that way, when I call Social Services on Monday, you know, I can be able to start maybe getting
the ball rolling for you and figure out what it is you need to do. I took that and I put that in my
bedroom. I still felt ill. Um, I locked my bedroom door. I always lock my bedroom door, it’s a
habit, and I, uh, I lay back down. Then later he knocked on my door and he asked me if I had
anything for, you know, headache. And I said, yeah, I do. I explained to him where it was
through the door; I didn’t open it, and I was laying in bed. I said, I don’t feel well here. There it
is. And he told me he couldn’t find it. And, you know, I thought this is kind of odd because my
pantry’s like Walmart. I mean, you can open it up and everything is very visible. But he couldn’t
find it. And I said, hang on. I got out of bed and I opened the door. And when I opened the door,
he had a knife in his hand, up in the air, and he pushed me back.

App. Pg. No. 52

– How was the knife. How is he holding the knife?
– He’s holding the knife like this with blade down.
– Down to the ground?
– Yeah. Okay.
– Like, I mean, it wasn’t facing the ground, but, I mean, he was holding the handle and was at an
angel.
– And which hand was he holding it with?
– I think it was his right hand, but I’m not 100% positive, but I think it was his right.
– So, he’s holding the knife and what else happened?
– He pushed me onto the bed, and he, uh and I was freaking out. I was...
– Did he say anything to you at all?
– Um, he said something to me, but I can’t remember exactly what it was. I don’t remember.
And he, I was fighting him, and he told me to calm down. That, that he would kill me, that I
needed to cooperate with him. And I was just, uh, scared. And I, uh, he dropped the knife and his
pants were not all the way down. He had pulled his penis out, his pants weren’t all the way
down.
– Just how far down was it?
– Far down to expose his penis?
– Okay.
– That’s it. It wasn’t pulled down over past his rear end. It was just pulled down in front. And,
um, he started choking me, and I thought to myself, I’m going to die. I’m gonna die here today.
And he, uh, choked me until I passed out and I…
– You didn’t yell or scream.
– I did scream, but I stopped screaming because I couldn’t because he was choking me. I
couldn’t, I couldn’t breathe. Um, I couldn’t get any anymore voice out. Um, yeah, I passed out
and he, I woke up with him on top of me and I, I grabbed him in the crotch, and I, I, uh, thought
it would have caused a sense of severe pain, but he didn’t flinch. Um, he just said, don’t do that,
you know, and I just I started. I just told him you could do whatever you want. I said, I don’t
mind. You know, I said, you know what? I don’t mind having sex with you. I said, you know, all
you would have had to do was ask. And I was trying to appease him, so he wouldn’t kill me and
said, you know, I will have sex with you. You know, I’ll do whatever you want.
– And when, when you, when you woke up, he was on top of you, was he already inside you?
– I don’t know.

App. Pg. No. 53

– So, you don’t know if I was inside you?
– I don’t know. All I know is he was on top of me.
– So, he was just on top and his pants were down.
– His pants were down. So, this is around six something, right?
– Yes.
– I told him I was really hot. I said, I feel really hot, you know, trying to think of a way to get a
little bit less bound. You know, I said I feel really hot, you know, I had the blue nightgown on,
and I had a black long, it was very binding. I said, you know, I’d like to take it off, you know, let
me take it off. You know, I was thinking maybe it will give me an opportunity to try to be able to
escape or fight him better. And he said, you can take it off. I kept begging him to let me take it
off. And I tried taking off myself, and he wouldn’t let me. He was, uh, pushing me down
because, because, uh, he didn’t want me to get up. Um, and he helped me take it off, and, uh, he
turned me over, and he started having anal sex with me, and I said, you know, that really hurts.
Please don’t do that, you know, don’t, don’t, don’t do that. You know…
– Explained to me what anal sex is.
– He put his penis in my rectum.
– Okay?
– And I told him that hurt. I said, you know, I don’t like this. He said you’ve never had anal sex
before, have you? And I said no. Then I said I don’t like it.
– So, when you woke up and he’s on top of you, with his pants down, did he threaten you or
anything? You had a conversation. What? Did he say anything to you? When you woke up from
being choked out?
– He just was telling me to calm down and to not…
– So, he tells you, calm down to not what?
– To not fight him.
– Okay. So?
– So, I, I, I, know I grabbed him; I know I grabbed him in the crotch.
– Where in the crotch?
– What do you mean Where in the crotch? I grabbed, just grabbed his balls.
– Okay, balls. You need to give more detail? You can leave it general. I need details, details,
details, explicit details.
– OK, I grabbed his balls. He didn’t, he didn’t flinch it all.

App. Pg. No. 54

– Okay. Did he threaten you? Did he scream, did he yell?
– He said calm down.
– Okay.
– So, I calmed down. So, I did. And then after that, I, you know, I told I wanted to take the stuff
off, you know. And he helped me take it off.
– Then who brought up the sex part?
– There was no question about sex. It was obvious.
– Who brought it up? Did he say let’s have sexual… Or did you bring it up – okay, you can have
sex with me, all you have to do is just ask. Who brought it up first, you or him? After you woke
up from being choked out?
– Um, it was obvious to me that he was trying to have sex with.
– I understand. But who brought it up?
– I did.
– You did? I brought it up to him.
– And did he threaten you to bring that up, or you just brought it up.
– I brought it up because I was trying to get him to not kill me.
– Did he threaten you at that time when you woke up and he’s on top of you? Did he brandish a
knife again? When you woke up?
– No, he dropped the knife right before he started choking me. He dropped the knife. Um, you
know…
– You brought up the sex part. So, you end up having anal sex. What else? How many times did
he penetrate you anally?
– Twice. And I, I brought up the sex part to him, and I just said, listen, you know, you don’t, you
know? Please don’t kill me. I’ll do anything you want. I said if you wanted to have sex with me,
all you would have had to do was ask me. You don’t have to, you know, force me like this. I
said, you know, you’re a really good-looking person. I said I was trying to make him feel good
about himself. I just said, you know, I, all you would have had to do is ask. And I would; you
don’t have to be forceful. I would be more than happy to have sex with you because you’re
good-looking. You’re a real nice person. Everything’s gonna work out. Okay?
– Okay. When you, when you say please don’t, I’ll have sex with you; please don’t kill me. I just
asked you, did he threaten you or do anything? When you brought up the sex part and you told
me no.
– I don’t understand your question. He was threatening me the whole time.

App. Pg. No. 55

– I just asked you that. Was he threatening you? You said no.
– Well, not verbally. He didn’t threaten me after I was…
– Stop right there. Prior to me turning on the recorder, what did I tell you? The question on my
part is the stuff that you give me, right? And I tell you, if you give me different answers, okay?
During the course of the investigation, I’m gonna be tougher on you during the interview. You
now gave me three different stories.
– Okay? He did not verbally threaten me after I passed out from him choking me. When I woke
up, he was physically threatening me by being on top of me after choking me until I passed out.
– And I asked you was his penis inside? You say, you don’t know.
– I don’t know.
– Okay, so, you have a no sex after it hurts. And he penetrated twice. What else happened after
that?
– He turned me over and he had vaginal sex with me. And then after that, how many times? How
long was that vaginal sex?
– Maybe five minutes.
– Was he wearing a condom?
– No.
– And he threatened you during the sex.
– Not verbally. He was physically forceful.
– Okay. You say you’ve allowed him to have sex with you after you woke up.
– I did.
– Okay.
– Yes.
– So, after you have sex what else happened, did he ejaculate in you? Did he ejaculate on top of
you.
– I don’t know if he ejaculated or not.
– Okay, so, after he finished sex, how do you know if he finished sex?
– Because he got off of me and I stood up and he started crying.
– Okay?
– He said he was really sorry that he’s never done anything like that before and that he just was
crying really hard and told me that, uh, he was very sorry. And I told him it was okay. I said, it’s

App. Pg. No. 56

OK. You know, You’re a good person. Everything’s fine. You know? I’m still gonna help you.
You know, I asked him. I said why don’t we smoke a cigarette. Um, and I put some clothes on.
Not much, I suppose. A little clothes on. He pulled his pants up. He was still crying. We came
out to the balcony and I was thinking, you know, you know, I can jump off this balcony. I
thought, you know, I can escape from this guy because he seems stable to me. And there were
kids in the pool, and I thought, you know, if I scream, you know, he could very easily pull me
back into this apartment really quickly or fight. If I make a gesture that looks like I’m gonna
jump off this balcony. He can still pull me back in this apartment really quickly. So, I sat there
and he cried for gosh, a good 15 minutes. And I talked to him and I said, it’s OK. Everything’s
gonna be okay. He kept on apologizing to me. And he said that God was gonna…
– Where was your cell phone?
– I don’t know where the cell phone was?
– What was the last time you had the cell phone?
– Last night.
– Where?
– Uh, in my purse was the last time I had it.
– And you didn’t see the phone in there when you pulled out your wallet?
– No. I didn’t look; I didn’t look to see if it was in there.
– Okay, so, you’re telling me the reason why you, you told him to have sex with you was
because of what he did prior, to you, as in having a knife at the front door, pushing down to the
bed, choking you and you passing out?
– Right.
– Where you passed out last night when you were throwing up or anything like that, when you
were sick?
– No.
– Okay. Did he hit you?
– Last night. Ever? No, he’s actually never hit me.
– Okay, um, so, you have consensual sex last night around nine hours, nine something, 9:55 or
10 o’clock last night. Then around 6 P.M., he comes to your door holding a knife, which we
can’t find a knife. What kind of knife is it?
– It was a kitchen steak knife.
– OK, did you happen to pick it up and put it up somewhere?
– No.

App. Pg. No. 57

– Okay, so, well, the deputies told me two or three of them searched the room and I couldn’t find
a knife at all. Okay, so, we’re gonna have a problem with that, uh. Then he pushed you down,
just choked you. And was his pants down already before he entered the room? Or did he pull it
down?
– His pants were up when he entered the room. Okay. He started pulling his pants down when,
uh, when he pushed me on the bed.
– And were you fighting him?
– Yeah.
– How? Um, I was trying to push him off of me.
– How come you weren’t screaming for help?
– I did.
– That’s when he started choking me.
– Okay.
– And I couldn’t scream anymore because I couldn’t breathe.
– Ok? And did you tell him? Get off, get off. What? What are you doing or anything?
– I told to stop. I said, please don’t kill me. Just begging him to not kill me.
– Okay. Okay. So, what do you want me to do with this, this case right here. What do you want
me do with this case?
– I think he’s a dangerous person. I think he’s unstable. I think that he needs a lot of help. And I
do not want him coming back here because I, I don’t want to kill me. Okay, so, let’s say if I
present this case to the district attorney’s office and got charges and the case might take maybe 1
to 2 years to go to court, are you going to come back here and testify.
– I will.
– So, you want to put this guy in jail?
– I do. I think he needs to be in jail.
– What do you want to put him in jail for?
– For almost killing me.
– Okay.
– That’s the most important thing to me. When I, when he was choking me, I thought to myself, I
didn’t see my life between my eyes. I thought to myself, they’re gonna be finding a body. When
my roommate gets home, they are going to find a body. He’s killing me. And then I passed out.
My neighbors downstairs, I saw them right after I called the police. These people called the

App. Pg. No. 58

police and I got on the phone with, you know, I use their cell phone whenever. I calmed him
down on this balcony, I said, everything’s gonna be okay. You know? Why don’t you get your
shoes? Get my purse and I’ll; first thing is that once you get my purse to give you some money,
so that when you go back to Kevin’s you know you can get food, you’ll be OK. He got my purse
when he went to go the bedroom to get my person.
– And how come you didn’t yell and scream for help?
– I, I wasn’t sure. I thought, you know, I could jump off.
– Here’s the thing I am not asking you for a breakdown and then you trying to make yourself
look better in this case. Listen to me. Stop. It’s a simple question. When I asked you a question,
don’t try to overanalyze this question. Don’t try to make yourself look good in this interview,
okay? You gave me three different stories. I need to, I need you to answer the question. I asked
you. OK?
– Yes.
– Simple as that, okay? Was my question tricky?
– No.
– Okay. Don’t overanalyze it. Don’t try to make yourself look good, okay? I don’t want you to
make yourself look good. Just tell me what happened. Don’t go back and tell me this happened.
This happened, no. Either tell me one story and stick with it and be fluent about it. Don’t go back
when I asked you a question and add more things to do. You understand me?
– Yes.
– That’s what you’ve been doing. Now that’s what I say. That you’re changing your story. Do
you understand me?
– I’m sorry. I’m nervous.
– I understand that. You need, you need to understand, you need to give me what the facts are.
Okay? Don’t add anything more. Don’t add anything less? I need the facts. I need details. Do
you understand me?
– Yes.
– Don’t say, oh, well, he’s only here. I think I should jump. No. Question was how come you
didn’t yell for help. When he was in your bedroom, he wasn’t around you.
– I understand.
– These apartment walls are thin. People can hear through the apartment wall. People can call
911 and say, hey, my neighbor is yelling for help! Call the police! Get the police over here.
There’s two police officers that live in this apartment complex. They do apartment security. One
is a state trooper. Once’s an HPD officer, they could have come here and saved you. How come
you did not yell for help?

App. Pg. No. 59

– I wasn’t sure if, uh, I’d be able to get away with him, away from him. I just wasn’t sure. I
envisioned him coming back with a knife and before help could get to me. Him killing me. It’s
what I…
– How come you didn’t just walk out the door?
– Well, I, he brought me a purse, and I thought to myself, Jeez, I should, I should, I should have.
– When he was in your room right, how come you didn’t walk out and yell for help.
– I didn’t know if I could. I didn’t know if he was gonna be coming around the corners. I was
trying to go that way, and I was worried that I wouldn’t have time.
– Ok, does your door have a deadbolt key where you have to use a key to unlock?
– No.
– So, it has two deadbolts, right.
– Right?
– So, you just flip 1, 2, boom, out and yell for help and run down, couldn’t you?
– Yes.
– Okay.
– How come you didn’t do that?
– I did end up doing that.
– No, how come you didn’t do that at the time when he was in the room?
– Because I didn’t think I’d be able to make it to the door in time.
– Okay. Then, what’s the difference between before and then what you did after.
– The difference is that I thought I may not have another chance. I’m gonna purposely send him
back into my room, and I’m gonna, I’m gonna bolt.
– How can I prove that his intention was to kill you? His intention was to rape you. How can I
prove that?
– I don’t know.
– How can I prove that? That, uh, that in court. That’s the thing I need to prove is the intent.
– Um, I think that he, I think that the way you could prove that he tried to kill me is because he
choked me until I passed out.
– Okay. And if he said that you were having rough sex, then what?
– I don’t know. I mean, I’m not, I’m not a judge. I don’t know, but I’ve…

App. Pg. No. 60

– So, you have a lot of opportunity to get help. But you’re waiting to the very end. You sat and
talked to him for a good while. He broke down and cried. You smoked a cigarette with him on
the balcony. You had a lot of opportunity to yell for help when people were outside. You didn’t
do that. When he went to the room, you didn’t go out again, right?
– Right.
– Then you waited. Then you waited until you sent him back inside to run for help.
– And did you run? Or did you gradually just walk?
– I ran out the door. Both of the deadbolts. Both of the locks were locked, and I, I thought to
myself when he came back, I’m stupid. I should have tried to run, so, I sent him back in the
room. And when he went back into the room, I undid both of those bolts. They were both, you
know, locked. I ended both of them and I just ran. I ran to the other end of the apartment
complex, telling people I needed help.
– And that’s the thing that, that I’m asking is. How come you didn’t do that at the beginning?
After you finished having sex and were talking. And he was crying. You were trying to comfort
him. Why not do that? That at that time why did you try? Talk to him? Why did you not make an
effort to leave if he choked you out trying to kill you? How come you did not leave? How come
when you woke up? Why offer him sex? Why not yell, scream for help? The walls in these
apartments are thin. Why not yell for help? Scream for help?
– I had already screamed for help until he had choked me until I passed out. And I was worried
that if I was trying to appease him because I didn’t think I would have, he was really crazy. And
I felt that I wouldn’t have enough time for somebody to help me. I figured in my mind the best
way would be for me to just make him trust me. And, uh, you know, make him happy and that,
you know, I would. My chances were better that way.
– Okay. You really go do a rape kit at a hospital. Wait 6 to 7 hours. Eight hours?
– Yes.
– For the sexual assault kit.
– That’s fine. Yes.
– Okay. Do you have any other information that I need to know in regards to this case?
– The neighbors downstairs, I saw them after I had called the police, on the phone with police,
they knew something was wrong. They came up to me and said, listen, we were really worried
with all this banging, you know. I said some guy’s trying to kill me. So, they might have
information they can give to you. Okay, they saw him jump off the balcony, too, which is why
they started looking for me.
– OK, well, they say nobody saw him actually jumping. Okay? And then it goes back to my
question. How come you didn’t yell for help if the neighbors heard banging then? I don’t think
they have time. I really thought that if I yell for help right now, he’s gonna pull me back in this

App. Pg. No. 61

apartment, kill me and yeah, sure, people are gonna come and help me, but I’m gonna be dead.
That’s what I thought.
– And wouldn’t you think if you’re not gonna yell for help, he might kill you anyway?
– No, because I thought that I was… Well, I think there was a good chance that he would kill
me. But I was calming him down. He was already calming down. He was crying. He was
showing remorse. I was trying to get him to be as calm as he possibly could be and in a better
frame of mind. So, I felt that that was my best shot of being able to survive.
– So, you want to press charges? In what? The sexual assault? Him choking you and almost
killing you. What do you want? To make this a report? Put him in jail. What do you want to put
him in jail for?
– I think that he should be in jail for attempted murder.
– Okay, so, you don’t wanna do sexual assault at all. You just want assault, that’s all. I’m here.
I’m asking you. Do you want to put him in jail for the assault? Do you want to put him in jail for
the sexual assault? What do you want to put him in for?
– I want him to go to jail so that he doesn’t…
– I understand that. And just answer my question. Do you want him to go to jail for assault by
choking you and almost killing you? Or the sexual assault?
– Oh, um uh, I think he should go to jail for both. But more important, one to me is for the
choking me.
– Okay, back to my original question. What do you want him to go to jail for?
– For trying to kill me.
– Is that it?
– So, do you want to do a sexual assault kit for this? A rape kit, since you want him to jail for
him assaulting you, do you want to do a rape kit? Yes or no?
– Yes.
– So, you want to pursue the rape too, or, no.
– Yes, I do. Because outside he told me he had sexual problems.
– Why did you even have sex with him the night before then? I didn’t know that before.
– Okay, simple question. Why would you invite a stranger to your house, period?
– Because I was stupid, and I was trying to help him. I thought so.
– Okay? You invite him in. You drank alcohol with him, then you voluntarily have sex with him
the night before, right? Why? Do you always do this?

App. Pg. No. 62

– No.
– Then why now?
– Because I think, because I have been drinking and I wasn’t thinking properly and it was stupid.
– Are you married? Back in Florida?
– No.
– You have kids.
– No.
– You have a boyfriend.
– No.
– Why would you invite a complete stranger to your house to drink? He could be a murderer.
– I know.
– But why did you invite him?
– I don’t know.
– I was stupid.
– I was trying to help him. Actually, I invited him over here, not with intentions of having sex
with him. I invited him over here because I genuinely wanted to help him. I felt sorry.
– You’re the one that told me that you started the sexual advances.
– I did.
– Okay. Couldn’t help him tomorrow, say, hey, meet me here tomorrow and I’ll help you when
you do that. Couldn’t you do that?
– Yes.
– Why did you have to invite him over to your house? That’s one of the things I have to explain.
Why did you bring him to you? You didn’t know he had problems? When you first invited him?
You found out that he had problems when he was at your house, not there. So, why did you
invite him back inside the house? It was not to help him quit and stuff. You told me perfectly
clear that you met him outside the liquor store. You thought he was cute. You talked to him. You
invite him back to your apartment. That’s, that’s what you said. Simple as that.
– I did not say that to you. I did not tell you that. I did not say that he was cute while I was at the
liquor store. I told you that he would, that I told him when he was on top of me after I passed out,
that I told him he was good-looking.
– Okay, no you said. Okay, let’s stop right there. You say you were helping him?

App. Pg. No. 63

– Right.
– That’s why you brought him over here. You have never had a personal conversation out there
at the liquor store. How do you know he had problems for you to help him?
– I, that’s not what I said to you. He told, I looked at him and I said, it looks like somebody left
you here. Don’t you think? It didn’t seem quite right. And he said that a lawyer had left him
there, that they’ve been in Austin, that they, that he was homeless and that, um, he did have some
place to stay but essentially was homeless. And that this lawyer was playing sexual games with
him and gave him crap. And I said why don’t you come back to my house. I told him I bought
some tequila. I said, come here. I’ll help you.
– Okay, back down. Back to the – why would you invite somebody that you don’t know, that
told you he already has problems to your house, that he admits using drugs already, to your
house. You say you don’t need any extra problems, right?
– I did it because I was stupid. And I had already been drinking. I bought more liquor at the
liquor store, bought some tequila, and…
– So, how long have you been drinking that day?
– Uh, I don’t know. I had a bottle of wine. Uh,
– How, how long have you been drinking? That day before you went to the liquor store.
– Probably several hours.
– So, you’ve been drinking several hours?
– Slowly. Yeah. I drink wine with the man down here. He didn’t have wine.
– But let me ask you something. Let’s be blunt. You saw that guy there. You felt horny. That’s
why you invited him up here.
– No. When I brought him here…
– Okay, okay, listen, stop. Listen, I need to understand. Why would you bring a stranger to your
apartment, since you’re already intoxicated, too. That’s what I need to make sure, make clear,
because when we go to court and this case is presented, they’d be like, I wouldn’t invite
somebody over to my house if I don’t know him.
– I know.
– I mean, to show that there was no malice, no hidden agenda to all this. And one thing is, I need
to understand why would you invite somebody you don’t know to your house? Then after
drinking with him, make sexual advances to him and you still don’t know who he is? You don’t
know his background. But then the next day, after he choked you and has sex with you, you still
sat there and talked to him instead of trying to get him to leave or yell for help.

App. Pg. No. 64

– While I was talking to him, I was thinking in my mind I could jump off the balcony. Can’t
jump off the balcony. You know, he’s gonna be able to grab me before I could jump off the
balcony and pull me back in the house and kill me. I viewed him, him being very unstable. I was
just trying to calm him down. I was thinking in my mind of the ways that I could escape. That
would give me the best possibility of being able to leave here without him killing me before
somebody could help me.
– Is that it?
– If that’s it, I’m gonna stop anything at 8:25.

App. Pg. No. 65

